No.
IN THE

SUPREME COURT OF THE UNITED STATES

S.T. and H.L.
Petitioners
v.
STATE OF VERMONT,
Respondent

On Petition for Writ of Certiorari
To the Vermont Supreme Court

PETITION FOR WRIT OF CERTIORARI

MATTHEW F. VALERIO
DEFENDER GENERAL
MARSHALL PAHL
Counsel of Record
SARAH STAR
On the Brief
OFFICE OF THE DEFENDER GENERAL
6 Baldwin St., 4th Floor
Montpelier, Vermont 05633
(802) 828-3168
marshall.pahl@vermont.gov

July 17, 2020

i

QUESTION PRESENTED
May the State of Vermont, along with a minority of other states, apply the
“reasonable probability” harmless error standard in assessing due process error in a
termination of parental rights proceeding, or must the more stringent Chapman
standard, required in cases of constitutional error and employed by a majority of
states, be applied.
Further, may the State of Vermont collapse the constitutionally-required
determination of “parental unfitness” into a general “best interests of the child”
analysis that applies when parental rights are terminated, or must it, like the
majority of other states, make that determination early in the case so that parents
may have an opportunity to seek reunification.

ii

LIST OF PARTIES
The parties to the judgement from which review is sought are:
S.T., father - petitioner
H.L., mother – co-petitioner
State of Vermont – Respondent
H.T., juvenile – Respondent
M.L., juvenile – Respondent

iii

TABLE OF CONTENTS
Question Presented......................................................................................................... i
List of Parties ................................................................................................................. ii
Table of Contents .......................................................................................................... iii
Table of Authorities ...................................................................................................... iv
Opinions Below .............................................................................................................. 1
Jurisdiction .................................................................................................................... 1
Constitutional Provision Involved ................................................................................ 1
Statement ....................................................................................................................... 1
Reasons for Granting the Petition ................................................................................ 6
1. There is a deep split of authority between states that require error to be
proven harmless beyond a reasonable doubt and those that look for a
“reasonable probability” that the outcome would have been different absent
the error. .............................................................................................................. 7
2. By holding that no explicit finding of parental fitness is required and that
instead parental fitness is just an implicit part of Vermont’s “best interest of
the child” analysis, the Vermont Supreme Court ignores one of the
fundamental due process protections that ensures that families are not
unnecessarily separated. .................................................................................. 10
Conclusion .................................................................................................................... 13
Appendix A ................................................................................................................... 1a
Appendix B ................................................................................................................. 15a

iv

TABLE OF AUTHORITIES

Cases
Boddie v. Connecticut, 401 U.S. 371, 377-78 (1971) ..................................................... 6
Chapman v. California, 386 U.S. 18, 24 (1967) ........................................................ 6, 7
In Interest of D.M.O., 2018 WL 1402030, *4 (Texas App. 2018) .................................. 8
In re A.H., 833 N.E.2d 915, 924 (Ill. App. 2005) ........................................................... 8
In re A.J.R.-H., 188 A.3d 1157, 1165 (Penn. 2018)....................................................... 8
In re Angela C., 99 Cal. App. 4th 389, 395 (Cal. App. 2002) ......................................... 8
In re D.C., 71 A.3d 1191, 1198 (Vt. 2012) ..................................................................... 3
In re D.C., 71 A.3d 1191 (Vt. 2012) ............................................................................. 10
In re D.S., 2016 WL 743961, *15 (Wis. App. 2016) ...................................................... 9
In re Gordon, 2009 WL 4984716, *3 (Mich. App. 2009) ............................................... 9
In re H.T., 227 A.3d 504 (Vt. 2020) ..................................................................... passim
In re K.A.W., 133 S.W.3d 1, 12 (Mo. 2004) .................................................................... 7
In re L.R., 2013 WL 3784939, *10 (Ohio App. 2013) .................................................... 8
In re M.P., 219 A.3d 1315, 1321 (Vt. 2020) ................................................................. 11
In re Scott S., 775 A.2d 1144, 1153 (Me. 2001) ............................................................. 8
Interest of C.E.B., 565 S.W.3d 207, 211 (Mo. App. 2018) ............................................. 8
Interests of S.D., 2017 AL 2001662, *8 (Kan. App. 2017) ............................................ 8
Lassiter v. New York, 452 U.S. 18, 27 (1981)................................................................ 2
Santosky v. Kramer, 455 U.S. 745, 758 (1982) ......................................................... 2, 7
Santosky, 455 U.S. at 763 ........................................................................................ 9, 10
South Carolina Dept. of Social Services v. Lisa H., 2010 WL 10079870, *3 (S.C. App.
2010) ........................................................................................................................... 9
Statutes
Vt. Stat. Ann. Tit. 33 § 5114(a) ................................................................................... 11
Vt. Stat. Ann. Tit. 33 § 5317(a) ................................................................................... 11
Other Authorities
Christopher Wildeman, et. al., The Cumulative Prevalence of Termination of
Parental Rights for U.S. Children, 2000-2016, Child Maltreatment, 25, 32-34
(2020) .......................................................................................................................... 9
Vermont Judiciary – Annual Statistical Report for FY19, Vermont Court
Administrator’s Office .............................................................................................. 12
Constitutional Provisions
U.S. Const. amend. XIV ........................................................................................... 1, 11

1

PETITION FOR A WRIT OF CERTIORARI
Petitioners, H.T., M.L. (Juveniles), S.T. and H.L. (Father and Mother of the
Juveniles) respectfully petition for a writ of certiorari to review the judgment of the
Vermont Supreme Court in this case.
OPINIONS BELOW
The opinion of the Vermont Supreme Court is published at In re H.T., 227
A.3d 504 (Vt. 2020). Pet. App. 1a. The decision denying petitioner’s motion to
reargue is unpublished. Pet. App. 25a.
JURISDICTION
The Vermont Supreme Court entered judgment on January 17, 2020. Pet.
App. 1a. The order denying petitioner’s timely motion for reargument issued on
February 19, 2020 and is unreported. Pet. App. 25a. On March 19, 2020, this Court
ordered that the deadline for filing any petition for a writ of certiorari due after the
date of the order would be extended to 150 days from the date of the judgment. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISION INVOLVED
The Fourteenth Amendment to the United States Constitution provides, in
relevant part: “No State shall…deprive any person of life, liberty, or property,
without due process of law…”
U.S. Const. amend. XIV, § 1.
STATEMENT
More than two decades ago, this Court declared it “‘plain beyond the need for
multiple citation’ that a natural parent’s ‘desire for and right to “the

2

companionship, care, custody, and management of his or her children” is an interest
far more precious than any property right.’” Santosky v. Kramer, 455 U.S. 745, 758
(1982), (quoting Lassiter v. New York, 452 U.S. 18, 27 (1981)). This Court also held
that “until the State proves parental unfitness, the child and his parents share a
vital interest in preventing erroneous termination of their natural relationship.
Thus, at the factfinding, the interests of the child and his natural parents coincide
to favor use of error-reducing procedures.” Id., 455 U.S. 745, 761.
In this case, the parental fitness determination did not occur until three years
after the children had been removed. In re H.T., 227 A.3d at 509. The Vermont
Supreme Court found that this delay was “well beyond the pale” and constituted
error. Id., ¶26. However, Vermont departed from other jurisdictions when it applied
a low, “reasonable probability,” standard to determine whether the error that
separated this family for the vast majority of these young children’s lives was
harmless. Id., ¶27. The Vermont Supreme Court upheld the judgment of the family
court because the family could not show a “reasonable probability” of a different
result if the hearing had been held years earlier, before the children formed the
bonds with their foster parents. Id.
Vermont differs from other jurisdictions in holding that the finding of
parental unfitness, required by the Fourteenth Amendment is not determined at
the adjudication stage of a dependency proceeding, but that it is “encompass[ed]
both directly and indirectly” in the consideration of four “best interests of the child
factors” considered at a later disposition hearing. In re D.C., 71 A.3d 1191, 1198 (Vt.

3

2012). When a Vermont court orders the termination of parental rights, there is no
explicit requirement to make a finding of “unfitness,” all that is required is broad
findings regarding the best interests of the child which may be based on hearsay.
Compounding the constitutional infirmity of Vermont’s procedure, there is no
binding timeframe for when the courts must make the determination.
1.

In July of 2016, the Vermont Department for Children and Families (“DCF”)

petitioned for custody of toddlers M.P. and H.T., alleging that they were in Need of
Care and Supervision (“CHINS”) due to parental neglect. Detecting no emergency in
the allegations, the family court set the petition for a preliminary “temporary care”
hearing several weeks later. Hearsay is admissible at temporary care hearings, and
the family court, relying in part on hearsay, found that the family’s home was dirty
and the children had behavioral problems, rashes, and scratches. Based on those
findings, the children were ordered into temporary DCF custody as the case was
adjudicated and moved on to a disposition hearing.
Somehow, it took years to get to the disposition hearing. The Vermont
Supreme Court explained:
The contested disposition hearing was scheduled for July
20, 2017. In early July 2017, DCF filed an amended
disposition report with a goal of adoption for both children
rather than the concurrent goals contained in the
February 2017 disposition case plan. Because the new
case plan goal was a significant change, the court
cancelled the July 20 hearing. It ordered DCF to file its
petition to terminate parents' rights by July 14, and the
July 20 hearing was to be a status conference on the
petitions only. DCF filed the TPR petitions and at the
status conference, it was determined that a three-day
contested hearing on the petitions would be required.

4

That hearing occurred in November 2018 and January
and February 2019 on five separate hearing days.
In re H.T., 227 A.3d at 509.
By the time of the initial disposition and termination of parental rights
hearing in 2019, the children had been in their foster home for the majority of their
lives and called their foster parents “mom” and “dad.” Id. at 519 (Robinson, J.,
dissenting). Meanwhile, the parents had had another baby, a boy, that they were
parenting without DCF intervention. Id. Even though the parents were successfully
caring for their new child, the family court granted the petition to terminate
parental rights to their older children in an order dated July 23, 2019 – which was a
full three years after the children had been temporarily removed. The parents
timely appealed that decision, which was the first final appealable order that had
been issued in the three years that the case was pending. The children did not file a
separate notice of appeal, but their attorneys and guardians ad litem noted their
support for the parents’ position that the family should be reunified. Id. at 509, n.2.
On appeal to the Vermont Supreme Court, the parents argued that the family
court deprived them of fundamental rights when it delayed the disposition hearing
that would have protected their right to family unity before their family bonds had
been broken down by the passage of time. A divided Vermont Supreme Court
affirmed the family court. Justice Harold Eaton, writing for the majority, agreed
with the parents that the cancellation of the disposition hearing and the ensuing
delay was an error. However, the majority concluded that the error was harmless
because the parents did not show a “reasonable probability” that the result of the

5

disposition hearing would have been different if it had timely occurred. In dissent,
Justice Beth Robinson wrote that the majority’s opinion was based on speculation
about what the outcome of the case might have been if the court had considered the
children’s best interest years beforehand, stating:
I cannot join the majority's conclusion that the error in
delaying the initial disposition hearing in this case for
over two years was harmless. I part ways with the
majority on this question for three reasons—one legal,
two factual. First, given the constitutional ramifications
and the standard for assessing harmless error in this
context, we should be particularly wary of basing a
harmless-error analysis on speculation. Second, I disagree
with the majority's assertion that it is clear that the
deficits that led the court to ultimately terminate parents'
rights existed throughout the case—"from the time of the
TCO [temporary care order] through TPR [termination of
parental rights]"—so there is no reasonable probability
that the court would have placed the children in the care
of their parents had the court held a timely disposition
hearing. See ante, ¶ 31. And third, I believe the years
these children spent forming important bonds with their
foster (and prospective adoptive) parents played a
significant role in the termination of the parties' parental
rights.
Id. at 517 (Robinson, J., dissenting).
Justice Robinson pointed to the initial agreement for reunification as
evidence that the hearing could have yielded a different result if it had not been
delayed for so many years. Justice Robinson suggested that the parents’ care of
their new baby showed that reunification would have been possible but for the
family court’s error and delay. Id. at 519 (Robinson, J., dissenting). The Vermont
Court did not address whether the children had been prejudiced by the delay
because the children had not filed a separate notice of appeal.

6

The parents and the children moved for re-argument, asking the Vermont
Supreme Court to analyze family court’s error under the more stringent standard
articulated Chapman v. California, 386 U.S. 18, 24 (1967), which has been adopted
by other courts in child protection proceedings. The Vermont Supreme Court denied
the motion for re-argument on February 19, 2020 without issuing a substantive
decision on the motion.
REASONS FOR GRANTING THE PETITION
This Court should grant certiorari to resolve a deep split of authority and
establish the standard for harmless error in state child protection and termination
of parental rights proceedings. This Court should resolve the split between
jurisdictions considering whether the state must show harmlessness of a
constitutional error “beyond a reasonable doubt” or by a “reasonable probability.”
This issue has profound ramifications for the Fourteenth Amendment guarantee
that the state may not deprive an individual of his liberty interests, including the
right to care and custody of his children, without providing a meaningful
“opportunity for hearing appropriate to the nature of the case.” Boddie v.
Connecticut, 401 U.S. 371, 377-78 (1971). This Court should also grant certiorari to
review the constitutionality of Vermont’s statutory scheme in which the standard
for parental unfitness is collapsed into a general consideration of the best interest of
the child, which necessarily means that determinations of parental fitness, to the
extent that they take place at all, will occur many months or even years after a
family is separated.

7

1. There is a deep split of authority between states that require error to
be proven harmless beyond a reasonable doubt and those that look
for a “reasonable probability” that the outcome would have been
different absent the error.
This Court has long recognized that, structurally, there is a great risk of
error in child welfare cases – particularly in proceedings to terminate parental
rights:
At such a proceeding [a termination proceeding],
numerous factors combine to magnify the risk of
erroneous factfinding. Permanent neglect proceedings
employ imprecise substantive standards that leave
determinations unusually open to the subjective values of
the judge. In appraising the nature and quality of a
complex series of encounters among the agency, the
parents, and the child, the court possesses unusual
discretion to underweigh probative facts that might favor
the parent. Because parents subject to termination
proceedings are often poor, uneducated, or members of
minority groups, such proceedings are often vulnerable to
judgments based on cultural or class bias.
Santosky, 455 U.S. at 762-63 (internal citations omitted).
That danger is no less real today than it was in 1982. And the danger of error is
magnified by the consequences of error in a termination proceeding. There is no
more grave sanction that the government can impose on an individual – aside,
perhaps, from criminal sentences of death and life without parole – than the
permanent and irrevocable termination of the relationship between a parent and
his or her child. Some courts refer to terminations of parental rights as a “civil
death penalty.” See, e.g., In re K.A.W., 133 S.W.3d 1, 12 (Mo. 2004).
Because of the gravity of the deprivation at stake and the significant
opportunity for error, many states apply the Chapman v. California standard when

8

assessing error in termination of parental rights cases. In these states, a reviewing
court may affirm a termination of parental rights in the face of constitutional error
only where the government proves that the error was harmless beyond a reasonable
doubt. See, e.g., In re Angela C., 99 Cal. App. 4th 389, 395 (Cal. App. 2002)
(California applies Chapman v. California in review constitutional error in
termination decisions); In re A.H., 833 N.E.2d 915, 924 (Ill. App. 2005) (Illinois
applies a “beyond a reasonable doubt” harmless error standard); Interests of S.D.,
2017 AL 2001662, *8 (Kan. App. 2017) (unpub.) (mem.) (Chapman v. California
applies in termination cases); In re L.R., 2013 WL 3784939, *10 (Ohio App. 2013)
(unpub.) (mem.) (Chapman v. California applies in termination cases); In re A.J.R.H., 188 A.3d 1157, 1165 (Penn. 2018) (standard similar to Chapman v. California
applies in termination cases); In Interest of D.M.O., 2018 WL 1402030, *4 (Texas
App. 2018) (unpub.) (mem.) (Chapman v. California applies in termination cases).
Other states, though, apply a less stringent standard. In Vermont, the courts
apply a “reasonable probability” standard – that is, whether there is a reasonable
probability that the result would have changed absent the error – in termination of
parental rights cases, whether the error is constitutional or not. Several other states
apply the same or a similarly low standard – some presume a lack of prejudice and
place the burden of proving prejudice on the appealing parent, others are silent on
the burden of proof. See, Interest of C.E.B., 565 S.W.3d 207, 211 (Mo. App. 2018)
(“reasonable probability” standard applies in child welfare proceedings); In re Scott
S., 775 A.2d 1144, 1153 (Me. 2001) (applying a “reasonable probability” standard to

9

all error in child protection proceedings, whether constitutional or not, but placing
the burden on the party asserting harmlessness); In re D.S., 2016 WL 743961, *15
(Wis. App. 2016) (unpub.) (mem.) (“reasonable probability” standard applies in child
welfare cases and the burden is on the appellant); South Carolina Dept. of Social
Services v. Lisa H., 2010 WL 10079870, *3 (S.C. App. 2010) (unpub.) (mem.)
(“reasonable probability” standard applies in child welfare cases); In re Gordon,
2009 WL 4984716, *3 (Mich. App. 2009) (unpub.) (mem.) (“reasonable probability”
standard applies to non-constitutional error in termination cases).
The disparity between these two competing standards for harmless error review
is of great significance. Based on statistics from 2016, it is estimated that one in
every one hundred children in the United States will have their relationship with
their parents terminated by state action by the age of eighteen. Christopher
Wildeman, et. al., The Cumulative Prevalence of Termination of Parental Rights for
U.S. Children, 2000-2016, Child Maltreatment, 25, 32-34 (2020). The rate of
termination is about fifty percent higher for Black children and about threehundred percent higher for Native American children. Id. at 33-40. As this Court
has observed, there are structural factors that disadvantage families in these cases.
State child welfare agencies are well funded, their own employees are the primary
witnesses in support of terminations, and because children are usually in custody
from the early stages of a case, the state “even has the power to shape the historical
events that form the basis for termination.” Santosky, 455 U.S. at 763. Moreover,
there are no double jeopardy protections in child welfare cases, so even where

10

families prevail in a child welfare proceeding, the state can, and often does, try
again with more or newer evidence. Id. at 764. “Coupled with a “fair preponderance
of the evidence” standard, these factors create a significant prospect of erroneous
termination.” Id. Given the gravity of the interests at stake, it is important that this
Court resolve this split of authority and determine whether error, including
constitutional error, in termination of parental rights cases may stand based only
on a determination of harmlessness by a “reasonable probability” standard.
2. By holding that no explicit finding of parental fitness is required and
that instead parental fitness is just an implicit part of Vermont’s
“best interest of the child” analysis, the Vermont Supreme Court
ignores one of the fundamental due process protections that ensures
that families are not unnecessarily separated.
This Court should grant certiorari because the Vermont Supreme Court’s
consideration of whether the parents might have prevailed at a cancelled
disposition hearing fails to recognize the grave constitutional implications of such
error in Vermont’s dispositional proceedings where the “most direct” determination
of parental unfitness, and the “most important factor” in terminating rights is made
long after the initial adjudication determination that the children are in need of
care and supervision and based primarily on the reasonableness of the timing for
reunification. In re D.C., 71 A.3d 1191, 1198 (Vt. 2012) (holding that the
constitutionally required finding regarding parental fitness is encompassed within
the general “best interests” analysis which governs disposition decisions). Because
timing of reunification is the most direct factor at the heart of the children’s best
interests and parental fitness, due process requires that parental fitness be
determined without leveraging unconstitutional delay against family unity.

11

In Vermont, unlike the majority of states, which consider parental fitness at
the adjudication stage of a child welfare proceeding, the determination of parental
unfitness is made at the time of disposition and is directly tied to the timing of the
case from the perspective of the child. In re M.P., 219 A.3d 1315, 1321 (Vt. 2020). To
determine the best interests of a child, the court must consider four statutory
factors, within certain (advisory) statutory timeframes. Vt. Stat. Ann. Tit. 33 §
5317(a), Vt. Stat. Ann. Tit. 33 § 5114(a). The “most important factor is the
likelihood that the parent will be able to resume parental duties within a
reasonable time. In re H.T., 227 A.3d at 515. Hence, in Vermont, the amount of time
in which a family can reunify makes a timely hearing both a procedural and
substantive necessity for the due process guaranteed by the Fourteenth
Amendment.
Perhaps because of this relaxed and vague standard, the Vermont
Legislature has clearly delineated timeframes for hearings in child protection cases.
However, the Vermont Supreme Court has weakened these protections by ruling
repeatedly that these timeframes are non-binding. Vermont’s CHINS statute
requires a disposition hearing within 95 days of a temporary care hearing which
places children in state custody. Vt. Stat. Ann. Tit. 33 § 5317. However, these
statutory timeframes are seldom, if ever adhered to. In Fiscal Year 2019 nearly a
third of all cases did not see a disposition order (and were thus subject to a
temporary care order) for more than six months even though the statutory timelines
require a disposition within ninety-five days of the temporary care order. See,

12

Vermont Judiciary – Annual Statistical Report for FY19, at 16, Vermont Court
Administrator’s Office (available at
https://www.vermontjudiciary.org/sites/default/files/documents/FY19%20Statistics%
20Report%20-%20FINAL.pdf (last accessed 7/3/2020)). In its ruling, the Vermont
Supreme Court ruled that in this case, the three-year delay was “well beyond the
pale” but it did not provide any guidance as to what type of delay might be harmful
to a family, or how it might be cured. In re H.T., 227 A.3d at 512.
Having found procedural error, the Vermont Supreme Court still ruled that it
would not disturb the court’s discretion because it “applied the proper standard” in
determining that the parents could not resume parenting within a reasonable
period of time, which is measured from the perspective of the child’s needs at the
time of the hearing. Id. at 514. The Vermont Supreme Court has therefore endorsed
a procedure in which the State is permitted to leverage the time awaiting a hearing
against families to justify their ultimate, and permanent separation. A deprivation
of this magnitude that is intertwined with unconstitutional delay violates the
Fourteenth Amendment. In this case, by the time of the disposition and termination
of parental rights hearing the children and no longer called their parents “mom”
and “dad” and they did not even consider their parents to be their parents. These
time-generated facts which were outside of the family’s control were key findings
used to support the family court’s conclusion on the third, most important factor in
determining parental fitness – that it was too late to send the children home.
Indeed, it is difficult to comprehend how the parents or children could be

13

unprejudiced by this cruel family substitution, regardless of whether the family
home continued to be messy, or the children continued to have bad behaviors. The
Vermont Supreme Court’s ruling allows an erroneous delay to perpetuate the
destruction of the family relationship, transforming Vermont’s already vague
termination standard into a blatantly unconstitutional moving target. The petition
should therefore be granted.
CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should be
granted.
Respectfully submitted.
MATTHEW F. VALERIO
DEFENDER GENERAL
MARSHALL PAHL
Counsel of Record
SARAH STAR
On the Brief
6 Baldwin St., 4th Floor
Montpelier, Vermont 05633
(802) 828-3168
marshall.pahl@vermont.gov
Counsel for Petitioners.

1a

APPENDIX A
The opinion of the Vermont Supreme Court (January 17, 2020).

2a

NOTICE: This opinion is subject to motions for reargument under V.R.A.P. 40 as well as formal
revision before publication in the Vermont Reports. Readers are requested to notify the Reporter
of Decisions by email at: JUD.Reporter@vermont.gov or by mail at: Vermont Supreme Court, 109
State Street, Montpelier, Vermont 05609-0801, of any errors in order that corrections may be made
before this opinion goes to press.

2020 VT 3
No. 2019-282
In re H.T. & M.L., Juveniles

Supreme Court
On Appeal from
Superior Court, Windham Unit,
Family Division
December Term, 2019

Katherine A. Hayes, J.
Sarah Star, Middlebury, for Appellant Father.
Michael Rose, St. Albans, for Appellant Mother.
Allison N. Fulcher of Martin & Delaney Law Group, Barre, for Appellees Juveniles.
Thomas J. Donovan, Jr., Attorney General, Montpelier, and Martha E. Csala, Assistant Attorney
General, Waterbury, for Appellee Department for Children and Families.

PRESENT: Reiber, C.J., Robinson and Eaton, JJ., and Grearson, Supr. J. and
Morris, Supr. J. (Ret.), Specially Assigned

¶ 1.

EATON, J. Parents appeal from the termination of their rights in M.L., born in

2014, and H.T., born in 2015, following a long-delayed initial disposition hearing. They argue
that: the court committed plain error in accepting their stipulation that the children were in need of
care or supervision (CHINS); their due process rights were violated by delays in the proceedings;
and the court erred in concluding that they would not be able to parent the children within a
reasonable time. We affirm.

3a

¶ 2.

The Department for Children and Families (DCF) has been involved with the

family since 2014, when it obtained custody of M.L. and an older half-sibling, A.L.1 M.L., then
two months old, had bruises on her face, and A.L., then two-and-a-half, cut himself with a razor
due to inadequate supervision. M.L. was returned to parents’ custody in April 2015 and H.T. was
born three months later.
¶ 3.

In July 2016, DCF filed a petition alleging that H.T. and M.L. were CHINS.

Following a temporary-care hearing, the children were taken into temporary DCF custody. The
court issued a written temporary-care order (TCO) in September 2016. Because this order forms
the basis of the CHINS determination, we set forth the findings in detail. The findings were made
by clear and convincing evidence unless otherwise noted and they were based on nonhearsay
unless otherwise stated.
¶ 4.

The findings reflect the following. Sometime after April 2015, when M.L. was

returned to parents’ care, she began exhibiting concerning behavior at preschool. She would
scream and cry multiple times a week in ways that differentiated her from the other children. The
court found by a preponderance of the evidence that there was a correlation between M.L.’s return
to parents’ home and her concerning behavior. The preschool teacher met with parents in May
2016 and parents agreed that M.L. should have a mental-health assessment.

The teacher

subsequently observed scratches on M.L. and what looked like a rug burn on her inner thighs. The
teacher contacted DCF about the latter condition. The court found it more likely than not that
M.L.’s rash was the product of at least minor neglect.
¶ 5.

A.L. was in DCF custody at the time of the temporary-care order. See 33 V.S.A.

§ 5308(c) (stating that in temporary-care proceeding, court “shall consider orders and findings

A.L. is mother’s, but not father’s, biological son. Mother’s rights in A.L. were
terminated, a decision we recently affirmed on appeal. See In re A.L., No. 2019-220, 2019 WL
6050048 (Vt. Nov. 14, 2019) (unpub. mem.), https://www.vermontjudiciary.org/opinionsdecisions [https://perma.cc/E53D-VX84].
2
1

4a

from other proceedings relating to the custody of . . . the child’s siblings”). The court found that
when A.L. came into DCF custody, his behavior was out of control. He was hurting other people
and hurting animals. His behavior improved in foster care. The court found by a preponderance
of the evidence that his behavior improved because he was removed from mother’s care. Mother
was not in control during supervised visits with A.L. Her home was chronically unclean; a DCF
employee who brought A.L. for a visit observed dog feces on the floor, old food stuck to a
highchair, and trash strewn all over H.T.’s room. There were piles of dirty dishes and three bags
of trash in the children’s bedroom. Father saw no issue with the home’s condition, which the court
found troubling.
¶ 6.

The TCO noted that DCF had been involved with the family for five years and

provided the parties with extensive support, including Family Time coaching, Nurturing Parents
group, financial support, daycare, early education, counseling, and regular treatment-team
meetings. In terms of custody, the court found it difficult to determine what additional services
DCF could provide to parents to keep the children in the home.
¶ 7.

The TCO court also admitted several exhibits provided by the State. One was an

affidavit containing hearsay that the court deemed reliable. Based on the affidavit, the court made
the following findings by a preponderance of the evidence. In late May 2016, a visit supervisor
tried to reach mother for almost four hours to confirm a visit with A.L. Mother was home alone
with H.T., who was then ten months old. Mother was sleeping in the middle of the day. When
the supervisor arrived with A.L., there were dirty dishes piled on the stove, sink, and freezer, and
clothes were strewn around the house. H.T. had not eaten lunch by 2:00 p.m. and mother initially
fed him Goldfish crackers. Around the same time, M.L. arrived at preschool with scratches and
unexplained bruising on both arms and across her back. Mother had kept M.L. home the day
before the scratches were noticed. When asked to meet to discuss the scratches, mother was
exasperated and displeased, stating that the house was a mess and that DCF was harassing her.
3

5a

Father expressed unhappiness about having to “deal with this [expletive].” Parents were observed
spanking M.L. very hard on multiple occasions, including once leaving a red mark on her lower
back. On another occasion, service providers stopped by the house and knocked for half an hour.
The children could be heard inside. Mother finally answered the door; the children looked dirty,
the house was messy, and mother would not let the visitors in. The court found that mother was
sleeping, leaving the children unsupervised.
¶ 8.

The TCO court found little to be drawn from two parenting capacity evaluations

that had been done. One doctor indicated that safety was a concern and that parenting three
children was a lot for mother to handle without a supportive partner. Father was not allowed to be
present during mother’s visits with A.L. The State asked the court to consider findings made in
April 2016 relative to A.L.’s case. The court found that these findings would be cumulative to the
evidence already presented.
¶ 9.

Based on its findings, the TCO court concluded that M.L. and H.T. were at risk of

harm. It explained that A.L. had demonstrated out-of-control behaviors culminating in injuring
M.L. while mother was asleep or otherwise not paying attention. A.L.’s behaviors subsided after
some time in foster care but resurfaced when he began having overnight visits with mother. The
behaviors subsided again after the overnight visits ceased. The court took into consideration that
A.L. had been found to be a CHINS based on similar conditions. See E.J.R. v. Young, 162 Vt.
219, 224, 646 A.2d 1284, 1287 (1994) (“The family court may rely on evidence of the treatment
of a sibling in concluding that a child is a CHINS.”). M.L. started exhibiting similar behavioral
problems once she was returned to parents. She was having very concerning tantrums. Service
providers reported the condition of the home to be squalid. There were instances of excessive
corporal punishment as well as unexplained injuries to M.L. and inattentiveness to parenting
responsibilities. The court found that parents’ behavior put the children at risk of harm. See
generally 33 V.S.A. § 5308(a)(1) (explaining that in temporary-care proceeding, court must return
4

6a

legal custody to parents unless it finds by preponderance that doing so would be contrary to child’s
best interests because, among other things, it “could result in substantial danger to the physical
health, mental health, welfare, or safety of the child”). It concluded that the children should be in
DCF custody until parents were engaged in services, working with DCF, and attentive, and the
causes of M.L.’s behavior could be identified.
¶ 10.

At a status conference in October 2016, the parties indicated that they were

discussing a possible stipulation to CHINS. The court noted that it had recently held a contested
temporary-care hearing and made findings based on direct evidence. Given this, it was not going
to relitigate at a CHINS merits hearing what had just occurred in the temporary-care hearing, but
parents would have the opportunity to present additional evidence. The court reiterated this in an
entry order, stating that it had held a lengthy temporary-care hearing at which the parties litigated
the merits of the CHINS petition. It made findings on a clear-and-convincing-evidence standard
based on live testimony and concluded that the petition had merit. Given this, it scheduled the
case for a two-hour merits hearing at which time parents could present any additional evidence
that they believed had bearing on the merits.
¶ 11.

DCF drafted an initial case plan in November 2016 with the goal of reunification

with parents. The plan contained expectations for both parents, including demonstrating an
increased ability to meet M.T.’s needs in a safe manner and working on listening and engaging in
conversation with less blaming and aggression.
¶ 12.

A CHINS merits hearing was scheduled for January 2017. At the hearing, parents

indicated that they had agreed to stipulate that the children were CHINS based on the written
decision from the temporary-care hearing; they signed a written stipulation to this effect. The
court reviewed the stipulation with parents. It explained to them that they could have presented
any additional evidence that they wanted at a merits hearing and that by entering into a stipulation,
they were waiving their opportunity to do so. Parents replied that they understood. Parents stated
5

7a

that they entered into the stipulation knowingly and voluntarily. They indicated that they had
discussed the stipulation with their attorneys and were satisfied with the attorneys’ advice. The
court then entered an adjudication of CHINS based on the stipulation. At the time of the court’s
ruling, a progressive visitation schedule was anticipated to begin, with overnight visits
commencing several weeks after the merits hearing. The expectation was that by the time of the
disposition hearing, there would be a conditional custody order (CCO) placing both children in
parents’ care. The court clearly informed parents, however, that if there were significant problems
such as unexplained injuries to the children or additional serious hygiene issues in the home, this
would affect the likelihood that a CCO would be issued at disposition.
¶ 13.

In February 2017, following an unsupervised overnight visit with parents at their

home, H.T. was found to have suspicious bruising on his body. DCF determined that the injury
was caused by abuse, with the perpetrator unknown. DCF suspended the unsupervised overnight
visits, which never resumed. Several months later, mother obtained a temporary relief-from-abuse
order against father based on allegations of domestic violence. The order was later vacated at
mother’s request. In May 2018, mother gave birth to another child.
¶ 14.

A disposition hearing began in late February 2017 and was continued at DCF’s

request given DCF’s investigation into the possible abuse of H.T. noted above. Another hearing
was set for April 5, 2017. On that day, it was determined that a full-day contested disposition
hearing would be required because the parties did not agree on the appropriate disposition. A
parenting-capacity evaluation report was also expected to be issued the following month, and it
was hoped that the report would provide significant guidance for case planning. The contested
disposition hearing was scheduled for July 20, 2017. In early July 2017, DCF filed an amended
disposition report with a goal of adoption for both children rather than the concurrent goals
contained in the February 2017 disposition case plan. Because the new case plan goal was a
significant change, the court cancelled the July 20 hearing. It ordered DCF to file its petition to
6

8a

terminate parents’ rights by July 14, and the July 20 hearing was to be a status conference on the
petitions only. DCF filed the TPR petitions and at the status conference, it was determined that a
three-day contested hearing on the petitions would be required.

That hearing occurred in

November 2018 and January and February 2019 on five separate hearing days.
¶ 15.

The court terminated parents’ rights in a July 2019 decision. It made numerous

findings and conclusions in a very lengthy decision, most of which we do not repeat here. It
granted the petition based on the lengthy passage of time, the children’s strong bonds with their
foster family, their unusually high needs, and parents’ failure to show any significant improvement
in parenting capacity, despite their love for the children. We provide additional details with respect
to the termination order in connection with parents’ arguments below. Parents appealed and they
join each another’s arguments.2 In particular, they argue that: (1) the court committed plain error
in accepting their CHINS stipulation; (2) the delay between the CHINS merits order and the initial
disposition hearing—which was also the termination hearing—deprived parents of due process;
and (3) the evidence of parents’ parenting style and housekeeping standards was insufficient to
justify termination of parental rights.
I. The CHINS Stipulation
¶ 16.

Under 33 V.S.A. § 5315a(b)(2), the court may accept a written stipulation to merits

if the parties agree to its terms and the court determines that: the agreement is “voluntary”; the
parties “understand the nature of the allegation”; and the parties “understand the rights waived if
the court approves of and issues an order based upon the stipulation.”
¶ 17.

Parents argue on appeal that they did not understand the rights they were waiving

because the court did not tell them that the State had the burden of proving its case by a

2

While the juveniles did not file a notice of appeal, they filed notice that they join in the
briefs filed by parents. We need not consider if they have standing to do so as we have considered
and rejected parents’ arguments on the merits.
7

9a

preponderance of the evidence. They further assert that the court should have explained to them
the circumstances under which—absent their stipulation—it could have relied on findings from
the temporary-care order. See id. § 5315(d) (explaining that, at CHINS merits hearing, court may
adopt findings “based on nonhearsay evidence” made in temporary-care order “provided that a
witness who testified at the temporary care hearing may be recalled by any party at a contested
merits hearing to supplement his or her testimony”). Finally, parents suggest that they were
induced to waive their rights in exchange for a favorable conditional custody order which the court
did not ultimately issue, rendering their stipulation involuntary. According to parents, the court’s
errors deprived them of the opportunity to have the merits of the CHINS petition determined by a
preponderance of admissible evidence.
¶ 18.

As parents acknowledge, plain error is “found only in a rare and extraordinary case

where the error is an obvious one and so grave and serious as to strike at the very heart of a [party’s]
constitutional rights.” In re G.S., 153 Vt. 651, 651, 572 A.2d 1350, 1351 (1990) (mem.) (quotation
omitted). We find no plain error here.
¶ 19.

As reflected above, the CHINS stipulation was under discussion for many months

before the merits hearing. The parents were present and represented by counsel throughout the
contested, evidentiary temporary-care hearing.

They each testified, and the court carefully

weighed their testimony. Notwithstanding the court’s temporary-care decision, it observed that
parents both “testified well.” Additional witnesses were also called, and testified, on parents’
behalf at the temporary-care hearing. The court made clear to the parties both orally and in writing
that it was not going to relitigate matters that were recently decided by clear and convincing
evidence following the temporary-care hearing. Parents raised no objection to this approach. They
ultimately agreed, after consulting with counsel, to stipulate to CHINS. By entering into the
stipulation, the parties waived their right to have a hearing on the merits of the CHINS petition

8

10a

and present any additional evidence under the unobjected-to process described above. The court
explained this to parents and parents indicated that they understood.
¶ 20.

The court did not commit plain error in this case by failing to explicitly advise

parents that, if there was a hearing, the State would have to prove by a preponderance of the
evidence that the children were CHINS. Especially in this case, where the State had already
presented substantial evidence that the children were at risk, and the court had made findings to
the level of clear and convincing evidence, the court did not commit plain error in failing to explain
to parents that they could rest on their rights and put the State to its proof. And the failure to
specify that the State’s burden of proof was a preponderance of the evidence was not a grave error
warranting reversal, especially given that the court had already made relevant findings using a
clear-and-convincing standard, and the preponderance standard is a relatively low one.
¶ 21.

Nor did the court commit plain error by failing to explain to parents when, and

under what circumstances, a court can rely on temporary-care findings in a CHINS merits hearing.
The court discussed this issue at the status conference preceding the merits stipulation and parents
raised no objection to the court’s approach. We note that most of the court’s findings in the TCO—
adopted in support of the CHINS findings—were made by clear and convincing evidence, and the
court made sufficient findings on the basis of nonhearsay evidence to support a CHINS order.
¶ 22.

Finally, parents’ suggestion that they were somehow wrongly induced into

stipulating to CHINS with the (unfulfilled) promise of a CCO at merits is unsupported by the
record. The court made clear to parents that while a CCO was contemplated, its disposition order
would depend on what occurred between the merits ruling and the disposition hearing.
¶ 23.

While the parents may have benefitted from a more thorough discussion with the

court, we conclude that the record in this case does not show that parents failed to understand the
rights they were giving up by stipulating to CHINS, and that, in approving parents’ stipulation

9

11a

under § 5315a, the court did not commit any error that was so obvious, grave, and serious as to
warrant reversal. See In re G.S., 153 Vt. at 651, 572 A.2d at 1351.3
II. Delayed Disposition
¶ 24.

Parents next assert that the delays “created by the State” deprived them of their

rights without due process and prejudiced the outcome of the case by mooting their objections to
the case plan and their requests to return the children to their care. They argue that the State was
not allowed to keep the children in custody pursuant to a temporary-care order for the length of
time at issue here, and that the case therefore must be dismissed. Mother further asserts that parents
were prejudiced by the court’s failure to adopt a case plan in a timely fashion.
¶ 25.

We conclude that the court’s failure to enter a disposition order for two-and-a-half

years after its merits order was error, but that in the specific circumstances of this case, the error
was harmless.
¶ 26.

As to the error, periodic status conferences are no substitute for the process

provided for in our juvenile statutes, pursuant to which a merits determination is ordinarily
followed by a disposition order, then regular post-disposition reviews by the court. Normative
“convene and continue” events do not serve to advance the meaningful process contemplated by
statute.4 Although, at any given juncture, further delay of the disposition hearing may have made
sense under the circumstances, the collective effect of those incremental delays was a gap of two-

3

Undoubtedly, given the significance of the rights at issue and the provisions of 33 V.S.A.
§ 5315a(b)(2), the court must engage in meaningful colloquy to make sure that parents are aware
of procedural rights that they are giving up as a result of a merits stipulation. However, because
we conclude that the trial court’s acceptance of the parents’ CHINS stipulation was not plain error
in the circumstances of this case, we decline to articulate a general rule establishing specific
elements of a colloquy that the court must engage in or specific disclosures the court must make
in considering a CHINS stipulation beyond the general statutory requirements.
Stated simply, chronic, “normative” continuances serve to compound delays in
meaningful disposition in CHINS cases. See V.R.F.P. 2(b)(3) (“A hearing on the merits of a
petition, or a disposition hearing, shall be continued only for good cause shown and found by the
court.”).
10
4

12a

and-a-half years between the trial court’s merits determination and its disposition order.
Throughout that period, although the parties did have the benefit of a full panoply of supports and
services, they did not have the benefit of a court-reviewed disposition plan. Whether these delays
were manufactured by the State—and we reject parents’ contention that they were—or caused by
the court, or just the result of well-intended decisions by the parties along the way, the potential
prejudice to the parents’ and children’s ability to reunify is the same. The delay in this case was
well beyond the pale, and we conclude that it amounted to error.
¶ 27.

But we decline to reverse because we conclude the error was harmless.

Specifically, we reject parents’ jurisdictional argument, and we conclude that parents in this case
did not suffer prejudice as a result of the delays. The deficits parents needed to overcome were
identified throughout the process and they had comprehensive services and supports throughout
the period. We do not find a reasonable probability that the court would have returned conditional
custody to parents had it issued a disposition order given that the deficits that led to removal of the
children, and ultimately termination, persisted with little change throughout the duration of the
case.
¶ 28.

Parents’ assertion that the court lacked jurisdiction to maintain the children in DCF

custody pursuant to the TCO through the course of these proceedings is inconsistent with our case
law. “It is settled that juvenile proceedings should be resolved as quickly as is reasonably possible,
but the time limits established by the governing statutes . . . are directory and not jurisdictional.”
In re M.B., 158 Vt. 63, 67, 605 A.2d 515, 517 (1992) (quotation and citations omitted); see also
In re D.D., 2013 VT 79, ¶ 24, 194 Vt. 508, 82 A.3d 1143 (noting that disposition “timeline is not
mandatory”).
¶ 29.

Moreover, we agree with the trial court that in this case, parents suffered no

prejudice as a result of the delay in completing the disposition hearing and issuing a disposition
order. First, the absence of an approved case plan through the course of this case did not create
11

13a

notice issues for parents. The court’s termination order here was not based on any failure by
parents to satisfy the expectations DCF laid out in the never-approved case plan; it was based on
the court’s conclusion, among others, that the parents would not likely be able to resume parenting
responsibilities in a reasonable time because of their failure to improve over the course of more
than two years despite extensive DCF supports. See, e.g., In re G.L.C., No. 2018-091, 2018 WL
3913133, at *3 (Vt. Aug. 6, 2018) (unpub. mem.), https://www.vermontjudiciary.org/opinionsdecisions [https://perma.cc/XW9L-AERG] (noting that trial court’s analysis did not turn on
mother’s failure to comply with any purported requirements imposed by DCF in not-yet-approved
case plan but, rather, turned on mother’s failure to mitigate underlying problems that led to CHINS
determination and child’s removal in the first place). Parents were on notice from the outset of—
and throughout—this case of the parenting deficits that gave rise to state intervention. DCF’s case
plan, the temporary-care order, and discussions at court conferences throughout this case made
plain the parenting deficits the parents needed to address. The court’s termination decision did not
introduce new, unanticipated considerations into the mix.
¶ 30.

In addition, there is no credible claim here that, had the court issued a disposition

order sooner, it would have called for services or supports for the parents that they did not have
the opportunity to access. In fact, even in the temporary-care order, the court noted that DCF had
been involved with the family for five years and had provided the parties with extensive support,
including Family Time coaching, Nurturing Parents group, financial support, daycare, early
education, counseling and regular treatment-team meetings. In terms of custody, the court found
it difficult to determine what additional services DCF could provide to parents to keep the children
in the home.
¶ 31.

Nor do we accept parents’ argument that had the court held a timely disposition

hearing it would have placed the children with parents pursuant to a CCO, thereby changing the
course of this case. We are mindful of the trial court’s TCO findings, which led to removal of the
12

14a

children in the first place. Not long after the CHINS merits hearing, following an unsupervised
overnight visit with parents at their home, H.T. was found to have suspicious bruising on his body
that was determined to be caused by abuse, with the perpetrator unknown. DCF suspended the
unsupervised overnight visits, which never resumed. Several months later, mother obtained a
temporary relief-from-abuse order against father based on allegations of domestic violence (at a
time when the children were not present). The order was later vacated at mother’s request. In
May 2018, mother gave birth to another child, greatly exacerbating the household chaos and
parenting deficits that gave rise to state intervention. It is clear from the trial court’s analysis that
the deficits that led the court to ultimately terminate parents’ rights existed throughout the case—
from the time of the TCO through TPR. We cannot conclude on the basis of the court’s analysis
and the record that, had the court completed a disposition hearing sooner, there is a reasonable
probability it would have placed the children in parents’ care.
¶ 32.

We further reject parents’ assertion that they were prejudiced by the delays because

the court’s ultimate decision was based on the amount of time that had passed. In fact, as explained
above, the court found that the delay gave parents additional time to show improvement. Despite
being provided with such time, parents nonetheless failed to show “sustained, significant benefit
from the education and support that they ha[d] been offered in how to parent the children.” While
they received parent coaching for a very long time, for example, they still could not make sustained
changes. The court described chronic problems that had continued without any significant
abatement since 2014, including: chronic mess, clutter, dirt, insects, and unpleasant smells in the
residence; parents’ yelling or talking very loudly both to one another and the children; their failure
to provide a clear, consistent routine for visits; their inability to control M.L.’s, and later H.T.’s,
tantrums; their failure to follow consistent rules and expectations for the children; their inability
to effectively discipline the children; father’s apathetic and uninvolved attitude toward parenting
and household chores; and parents’ attitude and practice of blaming and deflecting responsibility
13

15a

onto others. The court also found that parents had never accepted full responsibility for having
failed to provide proper parental care to the children at the time DCF first became involved with
their family. It added that, among other things, parents also failed to effectively address the very
disturbing allegations of family violence and controlling behavior by father that mother had made,
under oath, in her June 2017 relief-from-abuse complaint. The court’s decision did not rest on the
passage of time alone, but rather, the passage of time without progress.5
III. Sufficiency of Evidence and Findings
¶ 33.

Finally, parents argue that the court’s findings do not support its conclusions about

their inability to parent the children within a reasonable time. They suggest that the court’s
findings about them and their unsanitary living conditions reflect “cultural differences” that should
not play a role in a termination decision. They maintain that the findings do not show their inability
to parent the children within a reasonable time. Father also asserts that the court erred in finding
that he could not control the children’s tantrums. And, parents argue that the court “ignored” the
opinions of the children’s guardians ad litem.
¶ 34.

To determine the best interests of a child, the court must consider four statutory

factors. See 33 V.S.A. § 5114(a). The most important factor is the likelihood that the parent will
be able to resume parental duties within a reasonable time. See In re B.M., 165 Vt. 331, 336, 682
A.2d 477, 480 (1996). As long as the court applied the proper standard, we will not disturb its
findings on appeal unless they are clearly erroneous; we will affirm its conclusions if they are
supported by the findings. In re G.S., 153 Vt. at 652, 572 A.2d at 1351. We do not reweigh the
evidence or reassess the credibility of witnesses on appeal. See In re S.B., 174 Vt. 427, 429, 800

5

Notwithstanding any overlap in the analysis generally, it is clear that the court here did
not modify an initial disposition order based on stagnation. Thus, mother’s reliance on In re M.P.
is misplaced. See 2019 VT 69, ¶ 30, __ Vt. __, 219 A.3d 1315 (“We reiterate that stagnation was
inapplicable in the absence of a disposition order of the court that included a case plan that father
had to follow.”).
14

16a

A.2d 476, 479 (2002) (mem.) (“Our role is not to second-guess the family court or to reweigh the
evidence, but rather to determine whether the court abused its discretion in terminating [an
individual’s] parental rights”).
¶ 35.

The court did not terminate parents’ rights because they lived in a “smelly house,”

as they suggest. Instead, it found that they failed to make any progress in their ability to parent.
This failure included an inability to maintain a home free of filth, the “unpleasant smells” being
urine and feces; it also included their failure to learn from parenting coaching, and numerous other
obstacles recited above. The court’s numerous findings are amply supported by the evidence and
they support the court’s conclusion. This includes the finding that parents could not control the
children’s tantrums, as reflected in the detailed notes from the Family Time coaches and other
testimony at the hearing. Any error in the court’s finding about father’s ability to control M.T.’s
tantrums would be harmless in any event given the court’s numerous other findings.
¶ 36.

While the delay in the initial disposition hearing meant the court did not have to

find stagnation in order to terminate the parents’ residual parental rights, the court made findings
that support stagnation. The Family Time coaches ceased coaching parents, as testified at the
hearing, due to parents’ stagnant parenting skills and their inability to make progress despite the
coaches’ lengthy and consistent efforts to provide them guidance and advice. Finally, the court
was not required to expressly consider the opinions of the guardians ad litem in reaching its
decision. See V.R.F.P. 6(e)(3) (stating that guardian may, at a disposition hearing, “state his or
her position or opinion and the reasons therefor”). Contrary to parents’ assertion, the court did not
“ignore[] the injustices that were apparent to service providers, expert witnesses and the GALs.”
Instead, it applied the law and evaluated, based on the evidence, whether terminating parents’

15

17a

rights would be in the children’s best interests.6

While parents disagree with the court’s

conclusion, they fail to show error.
Affirmed.
FOR THE COURT:

Associate Justice

¶ 37.

ROBINSON, J., dissenting. This is a hard case. I respectfully dissent because I

cannot agree that the error in failing to complete the disposition hearing for more than two years
after the CHINS merits determination was harmless.
¶ 38.

The procedural course and substantive evidence in this case are important. As the

majority sets forth in detail, the trial court made extensive findings by clear and convincing

The dissent notes that “children, like their parents, have a strong statutorily and
constitutionally protected interest in relationships with the parents with whom they have
established bonds” and that, in this case, “[t]he children’s interests in protecting the parent-child
bonds are fully aligned with those of their parents.” Post, ¶ 43 n.10. We note that the children did
not file a notice of appeal in this case.
6

While a trial court obviously is not obligated to simply accept a party’s recommendation
with respect to a termination petition, we recognize that a child’s viewpoint, and the opinion of a
child’s guardian ad litem where authorized pursuant to V.R.F.P. 6(e)(3), are important and worthy
of consideration. See generally In re S.B., 174 Vt. at 429, 800 A.2d at 479 (recognizing that trial
court may consider preferences expressed by older child in evaluating certain statutory bestinterest criteria, but Legislature has not chosen to give such preferences “inordinate weight”); see
also V.R.F.P. 6(e)(3) (stating that “guardian ad litem may, at a disposition or temporary care
hearing . . . , state his or her position or opinion and the reasons therefore”). Ultimately, it is for
the trial court to evaluate the evidence and determine what course of action is in a child’s best
interests. In this case, the trial court sought out the opinions of the children’s guardians ad litem
and there is nothing to suggest that it failed to consider these opinions. It engaged in a detailed
analysis of the evidence in its seventy-page decision and fully addressed the statutory best-interest
criteria. In reaching its decision, the court was not required to specifically recite and weigh each
party’s preferred outcome. We defer to the trial court’s evaluation of the evidence on appeal and
review its decision only for abuse of discretion. See id. (“Our role is not to second-guess the family
court or to reweigh the evidence, but rather to determine whether the court abused its discretion in
terminating . . . parental rights with respect to [a child], notwithstanding [that child’s] stated
opposition to termination.”). We find no abuse of discretion here.
16

18a

evidence in its initial temporary-care order (TCO), following a contested temporary-care hearing.
Some of those findings were based on reliable hearsay, which is admissible in a temporary-care
hearing; some were based on hearsay. The court concluded that M.L. and H.T. were at risk of
harm based primarily, though not exclusively, on nonhearsay evidence. First, the court relied on
the fact that the children’s older half-brother exhibited out-of-control behaviors before he was
removed from the parents’ home, and those behaviors subsided after some time in foster care but
resurfaced when he had overnights with his mother. Insofar as M.L. had begun exhibiting similar
out-of-control behaviors to her older brother, the court inferred that she, too, was at risk. Second,
the court found that service providers reported the condition of the home to range from “very
messy to squalor.” Third, the court noted “instances of excessive corporal punishment.” And
finally, the court noted unexplained injuries on M.L. and inattentiveness to parenting
responsibilities.
¶ 39.

The parties ultimately stipulated to CHINS, based on the temporary-care order.7 At

that juncture, all parties and the court expected that visitation would progress to unsupervised

7

Although I focus my dissent on the impact of the delay on the ultimate decision to
terminate parents’ rights, I agree with parents that the process leading up to their CHINS stipulation
compromised the voluntariness of their respective stipulations. In an October 2016 status
conference preceding a CHINS merits hearing, the court noted that most of its findings in the
temporary-care order were based on live witnesses rather than hearsay, and said, “frankly I could
make a merits finding based on what I already heard.” The court noted that parents might want to
provide additional evidence as to merits, but explained that “we’re not going to relitigate
everything that took place in the temporary care hearing.” The court reiterated its impressions of
the evidence at the beginning of the merits hearing, before parents had executed a stipulation.
Although much of the evidence supporting the trial court’s findings in the temporary-care
hearing were not based on hearsay evidence, some of the significant findings were. See 33 V.S.A.
§ 5307(f) (reliable hearsay testimony may be admissible in a temporary-care hearing). Among the
court’s temporary-care order findings that were based solely or partly on hearsay evidence were
its findings concerning “instances of excessive corporal punishment,” the messy or squalid
condition of the parents’ home, parental inattentiveness, and unexplained injuries. To the extent
that the record suggests that parents signed the merits stipulation believing that these findings were
established for purposes of merits, subject only to their opportunity to provide additional clarifying
evidence, I cannot join the majority’s conclusion that their stipulations were voluntary. By
specifically requiring that a parent’s stipulation to CHINS be voluntary, the Legislature has
17

19a

visitation within two weeks, and to overnights in three weeks or so, with an expectation that the
disposition order would call for a conditional custody order (CCO) with various restrictions and
limitations. The court noted its understanding that “if there’s any real bad mess up that that will
not be what happens in the disposition.” It elaborated:
[I]f M.L. shows up at school with some unexplained injury that
happened under suspicious circumstances, you’re not going to see a
CCO disposition. Or if DCF should stop by the house and . . . the
dog has defecated all over the house and there’s garbage strewn
throughout the rooms and things look the way they did at the time
the kids came into custody, I don’t know that DCF will find itself
bound to recommending a CCO disposition.
¶ 40.

At that point, the case went off the rails. Overnight visits were suspended following

the appearance of suspicious bruising on H.T.’s body after an unsupervised overnight visit with
parents. The disposition hearing nominally began in February 2017, but was continued to give
DCF time to investigate the bruising. Then the court put off hearings in April and July 2017. DCF
filed a petition to terminate parental rights in July 2017, and the court finally held an evidentiary
disposition/TPR hearing beginning in November 2018 and concluding in February 2019. That
hearing—beginning seventeen months after the unexplained bruising and ending a full two years
after that event—was parents’ first opportunity for an evidentiary hearing on the circumstances
that led DCF (and the court) to abandon the plan to place the children with parents at initial

signaled that we cannot simply presume that the stipulation of a parent who is (adequately)
represented by counsel must be voluntary. See 33 V.S.A. § 5315a(b). Instead, the Legislature has
expressly required that courts evaluating CHINS stipulations determine that the agreement
between the parties is voluntary, that the parties to the agreement understand the nature of the
allegation, and that the parties to the agreement understand the rights waived. Id. Although I do
not suggest any particular colloquy or formula for assuring voluntariness, where the record reflects
that the parents were potentially significantly misled as to the quantity and quality of the evidence
that the court had already agreed to consider for CHINS merits purposes, I believe such a
misimpression, if left uncorrected, does compromise the voluntariness of the parents’ stipulation.
Cf. In re Moulton, 158 Vt. 580, 584, 613 A.2d 705, 708 (1992) (stating misinformation regarding
parole eligibility may support a successful attack on the voluntariness of a plea).
18

20a

disposition pursuant to a conditional custody order.8 Throughout that two-year period, children
lived in a foster home, formed bonds with their foster care providers, who are prepared to adopt
the children, and became adjusted to their lives in foster care.
¶ 41.

Given this history, I cannot join the majority’s conclusion that the error in delaying

the initial disposition hearing in this case for over two years was harmless. I part ways with the
majority on this question for three reasons—one legal, two factual. First, given the constitutional
ramifications and the standard for assessing harmless error in this context, we should be
particularly wary of basing a harmless-error analysis on speculation. Second, I disagree with the
majority’s assertion that it is clear that the deficits that led the court to ultimately terminate parents’
rights existed throughout the case—“from the time of the TCO through TPR”—so there is no
reasonable probability that the court would have placed the children in the care of their parents
had the court held a timely disposition hearing. See ante, ¶ 31. And third, I believe the years these
children spent forming important bonds with their foster (and prospective adoptive) parents played
a significant role in the termination of the parties’ parental rights.
¶ 42.

With respect to the applicable legal framework, an error in a termination of parental

rights case warrants reversal only if “a substantial right of the party is affected.” In re R.W., 2011
VT 124, ¶ 17, 191 Vt. 108, 39 A.3d 682 (quotation omitted). That standard must be understood in
the context of the constitutional ramifications of a termination decision, and the State’s burden of
proof in such cases. The Legislature and this Court have consistently recognized the primacy of
the parent-child relationship, and the limitations on state authority to intervene in that relationship.
See 33 V.S.A. § 5101(a)(3) (providing statute should be construed “to preserve the family and to

8

I do not suggest that the State, or the court, intentionally orchestrated such a lengthy
delay for an ulterior purpose. At any given juncture, the decision to defer an evidentiary
disposition hearing until a later date no doubt seemed prudent to the State and the court, and in
some cases perhaps even parents’ counsel. But the cumulative effect of these delays was
significant and cannot be ignored.
19

21a

separate a child from his or her parents only when necessary to protect the child from serious harm
or in the interests of public safety”); In re N.H., 135 Vt. 230, 236, 373 A.2d 851, 856 (1977)
(recognizing that “the freedom of children and parents to relate to one another in the context of the
family, free of governmental interference, is a basic liberty long established in our constitutional
law” (citing Stanley v. Illinois, 405 U.S. 645 (1972); Prince v. Massachusetts, 321 U.S. 158 (1944);
Meyer v. Nebraska, 262 U.S. 390 (1923))). For that reason, before the State may “sever completely
and irrevocably” the rights of a parent in their child, “due process requires that the State support
its allegations by at least clear and convincing evidence.” In re D.C., 2012 VT 108, ¶ 21, 193 Vt.
101, 71 A.3d 1191 (quoting Santosky v. Kramer, 455 U.S. 745, 747-48 (1982)).
¶ 43.

The harmless-error analysis is necessary retrospective; we are called upon to

determine how a case would have unfolded in the absence of an established error. Because in
juvenile cases, in contrast to most other case types, the facts and evidence are dynamic and everevolving, rather than fixed in a static record, the project of determining how things would likely
have unfolded in the absence of an error—particularly an error relatively early in the process—is
especially perilous, and vulnerable to undue speculation. The constitutional rights at stake for both
parent and child9 require that this Court have a high degree of confidence that an error had no
impact before it affirms an order terminating parental rights following a significant substantive or

9

The parental rights of parents and the rights of their children are sometimes described,
inaccurately, as necessarily competing. But children, like their parents, have a strong statutorily
and constitutionally protected interest in relationships with the parents with whom they have
established bonds. See In re N.L., 2019 VT 10, ¶ 39, __ Vt. __, 201 A.3d 475 (Robinson, J.,
dissenting) (noting “substantial and permanent consequences of a termination of parental rights,
with profound implications for the constitutional rights and most intimate personal experiences of
both parent and child”); see also Santosky, 455 U.S. at 760 (“At the factfinding, the State cannot
presume that a child and his parents are adversaries. . . . [U]ntil the State proves parental unfitness,
the child and his parents share a vital interest in preventing erroneous termination of their . . .
relationship.”); In re D.C., 2012 VT 108, ¶ 27 (agreeing with general principle described in
Santosky). This case is Exhibit A: the guardians ad litem for both children opposed termination
of parents’ rights. Through counsel, children support parents’ position on appeal. The children’s
interests in protecting the parent-child bonds are fully aligned with those of their parents.
20

22a

procedural error. On this record, although I agree with the majority that there is no basis for
concluding that the parents would have had access to more or different services had they had the
benefit of a timely disposition hearing, I do not have a high degree of confidence that, had the trial
court held a timely disposition hearing, it would not have placed the children with parents pending
further proceedings.
¶ 44.

My lack of confidence is based in part on my rejection of the assertion that the

circumstances that ultimately led to termination of parental rights in this case persisted, unabated,
from the time of the temporary-care order until the termination order. Even after the temporarycare order, and after the CHINS stipulation, the court and parties all anticipated the imminent
return of both children to parents pursuant to a conditional custody order. Given that fact, it is not
the case that, based on the TCO findings and conclusions, we can confidently conclude that the
court would have declined a conditional custody order. The court expressly indicated otherwise
at the merits hearing.10 What changed was the appearance of suspicious bruising on H.T.’s body
following unsupervised overnight visitation. That suspicious bruising may have provided a
reasonable basis for temporary cessation of unsupervised overnight visits, and perhaps even
postponement of the disposition hearing (although the court could have begun taking evidence at
the originally scheduled disposition hearing while leaving the temporary-care order in place). But
neither DCF nor the trial court ultimately found that the bruising was attributable to abuse or
neglect on the part of either parent. Accordingly, the critical consideration that perpetuated these
children’s removal from their parents for over two years pending resolution of the TPR/disposition
hearing was a suspicion that was not subjected to the rigors of a court hearing throughout that

10

This CHINS merits hearing also occurred long after the events documented in H.T. and
M.L.’s older half-brother’s CHINS proceeding, and recounted at great length in the TPR court’s
findings.
21

23a

period, and was never proven by a preponderance of the evidence, let alone clear and convincing
evidence.11
¶ 45.

The years the children spent living with foster parents—their prospective adoptive

parents—were significant in driving the trial court’s TPR order. The TPR court found that the
children were strongly bonded to both of their foster parents, and to each other. The court found
that the children had been living with their foster family for more than twenty-eight months, had
fully adapted to that home, and were well adjusted and adapted to the routines there. The children
referred to their foster parents as “mom” and “dad,” and were happy, healthy, and well adjusted to
their schools.
¶ 46.

The court found that parents had taken “very significant steps to meet many of the

proposed disposition case plan goals.” They had stable housing and employment, were selfsupporting, had taken multiple parenting classes, and had attended visits with the children as
scheduled and on time. The court found that the children are affectionate towards the parents, glad
to have regular contact with them, and happy to hug and snuggle with both parents. But the court
identified numerous offsetting parenting shortcomings: the chronic mess, clutter, and smells in
their home persisted; they did not provide a clear, consistent routine for visits; they were unable to
control the children’s tantrums; they failed to follow consistent rules and expectations for the
children; they weren’t able to effectively discipline the children; father still had an uninvolved
attitude toward parenting and household chores; and both parents tended to deflect responsibility
for their shortcomings to others. Although the children were happy to spend time with them, the
children did not view them as parents. The court concluded that neither parent could provide the

11

The TPR court found that the nature and source of the injury were investigated by DCF,
which determined that “the injury was caused by abuse, but by an ‘unknown person.’ ” The court
noted that by letter of March 17, 2017, DCF investigators notified the parents that they had
determined that H.T. “did sustain suspicious bruising for which [they] were unable to definitely
determine where or when they were caused or by whom.”
22

24a

children with the stable, calm, consistent parenting and the safe, clean environment that they
needed.
¶ 47.

Whether these considerations alone, apart from the children’s need for permanency

and adjustment to their longtime foster home, would support termination of parents’ rights is
questionable. Notably, parents continue to parent a younger child without DCF interference—a
fact that suggests these parents are capable of safely parenting.12
¶ 48.

I’m sympathetic to the position that at this late date it could be harmful to remove

the children from their foster family and place them with parents; although the trial court found
that the children felt affection for their parents, and were glad to spend time with them, it also
found that at this point they view their foster parents as their “mom” and “dad.” But I cannot
ignore the fact that this reality is itself a product of an unconscionable delay in the court process,
which left these children to bond with and adjust to life with their foster family while denying
parents an opportunity to reassume custody while they worked through the case plan. For this
reason, I respectfully dissent.

Associate Justice

12

I do not suggest that DCF should seek custody with respect to this younger child; I only
flag this fact to highlight the likelihood that H.T. and M.L.’s relationships with their longtime
foster parents were a significant factor in the court’s termination of parents’ rights.
23

25a

APPENDIX B
Order of the Vermont Supreme Court denying petitioner’s motion to reargue
(February 19, 2020).

